                                                                              AUDIT




U.S. FISH AND WILDLIFE SERVICE WILDLIFE AND
SPORT FISH RESTORATION PROGRAM GRANTS
Awarded to the State of Maine, Department of Inland Fisheries and Wildlife,
From July 1, 2008, Through June 30, 2010




Report No.: R-GR-FWS-0012-2011                                           March 2012
                                                                                            March 1, 2012

                                             AUDIT REPOR
                                                       RT

Memoran
      ndum

To:             Directtor
                U.S. Fish and Willdlife Service

From:           Suzan
                    nna I. Park
                Directtor of Extern
                                  nal Audits

Subject:        Audit - U.S. Fish and Wildlifee Service Wiildlife and Sport Fish Reestoration
                Prograam Grants Awarded to the State of M aine, Depaartment of Innland Fisheriies
                and Wildlife, From
                                 m July 1, 2008, Throughh June 30, 20010
                Reporrt No. R-GRR-FWS-0012-2011

       This report prresents the reesults of ourr audit of cossts claimed by the State of Maine (SState),
Department of Inland d Fisheries and Wildlife (Departmennt), under graants awardedd by the U.S    S.
Fish and Wildlife Serrvice (FWS)). FWS provided the gran    ants to the Sttate under the Wildlife annd
Sport Fissh Restoratio
                     on Program (Program). The audit inccluded claim     ms totaling appproximatelyy
$16.9 million on 18 grants that were open du   uring State fiiscal years (SSFYs) that ended June 30,
2009, andd June 30, 2010 (see Ap  ppendix 1). The audit also covered thhe Departmeent’s compliaance
with appllicable laws,, regulationss, and FWS guidelines, inncluding thoose related too the collectiion
and use of hunting annd fishing liccense revenu ues, and the reporting off program inccome.

       We found thaat the Departtment compllied, in generral, with appplicable grannt accountingg and
regulatorry requiremeents. We queestioned costts totaling $3321,180 becaause the Deppartment didd not
accuratelly or consisteently calculaate payroll am
                                                 mounts charrged to the Program grannts. We also
determinned that the Department (1) did not ensure the Sttate’s legislaation assentinng to the Wildlife
and Sporrt Fish Restooration Acts met Federal requirementts, (2) did noot reconcile its inventoryy of
Program lands with FWS’ record     ds, and (3) diid not adequuately inventtory equipmeent in
compliannce with Statte laws.

      We provided a draft reporrt to FWS fo   or a responsee. We summ
                                                                    marized Depaartment and FWS
Region 5 responses to the recomm mendations, as well as o ur commentts on the responses afterr the
recommeendations. We list the staatus of the reecommendattions in Apppendix 3.

       Please respon
                   nd in writing g to the findinngs and recoommendationns included in this reporrt by
May 30, 2012. Your response sho    ould includee informationn on actions taken or plaanned, targetted
completion dates, and
                    d titles of offficials respo
                                               onsible for im
                                                            mplementatioon. Please adddress your
response to:



                            Office of Audits, Inspecttions, and Evaluaations | Reston, VA
                              Director of External Audits
                              U.S. Department of the Interior
                              Office of Inspector General
                              12030 Sunrise Valley Drive, Suite 230
                              Reston, VA 20191

      If you have any questions regarding this report, please contact the audit team leader, Lori
Howard, or me at 703–487–5345.

cc: Regional Director, Region 5, U.S. Fish and Wildlife Service




                                                2
Table of Contents
Introduction ............................................................................................................. 1
   Background ......................................................................................................... 1
   Objectives ............................................................................................................ 1
   Scope ................................................................................................................... 1
   Methodology ....................................................................................................... 1
   Prior Audit Coverage .......................................................................................... 2
Results of Audit ...................................................................................................... 3
   Audit Summary ................................................................................................... 3
   Findings and Recommendations ......................................................................... 3
Appendix 1 ............................................................................................................ 10
Appendix 2 ............................................................................................................ 11
Appendix 3 ............................................................................................................ 12
Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport
Fish Restoration Act (Acts)1 established the Wildlife and Sport Fish Restoration
Program. Under the Program, FWS provides grants to states to restore, conserve,
manage, and enhance their sport fish and wildlife resources. The Acts and Federal
regulations contain provisions and principles on eligible costs and allow FWS to
reimburse states up to 75 percent of the eligible costs incurred under the grants.
The Acts also require that states use hunting and fishing license revenues be used
only for the administration of the State’s fish and game agency. Finally, Federal
regulations and FWS guidance require states to account for any income they earn
using grant funds.

Objectives
Our audit objectives were to determine if the Department:

       •    Claimed the costs incurred under the Program grants in accordance with
            the Acts and related regulations, FWS guidelines, and the grant
            agreements.
       •    Used State hunting and fishing license revenues solely for fish and
            wildlife program activities.
       •    Reported and used program income in accordance with Federal
            regulations.

Scope
Audit work included claims totaling approximately $16.9 million on the 18 grants
that were open during SFYs that ended June 30, 2009, and June 30, 2010 (see
Appendix 1). We report only on those conditions that existed during this audit
period. We performed our audit at the Natural Resources Service Center in
Hallowell, Maine, and visited the Maine Department of Inland Fisheries and
Wildlife Headquarters, two regional offices, seven wildlife management areas,
one fish hatchery, and one public access site (see Appendix 2). We performed this
audit to supplement, not replace, the audits required by the Single Audit Act
Amendments of 1996 and by Office of Management and Budget Circular A-133.

Methodology
We conducted our performance audit in accordance with “Government Auditing
Standards” issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.


                                                                                     1
auditing procedures as necessary under the circumstances. We believe that the
evidence obtained from our tests and procedures provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Our tests and procedures included:

   •   Examining the evidence that supports selected expenditures charged by
       the Department to the grants.
   •   Reviewing transactions related to purchases, direct costs, drawdowns of
       reimbursements, in-kind contributions, and program income.
   •   Interviewing Department employees to ensure that personnel costs
       charged to the grants were supportable.
   •   Conducting site visits to inspect equipment and other property.
   •   Determining whether the Department used hunting and fishing license
       revenues solely for the administration of fish and wildlife program
       activities.
   •   Determining whether the State passed required legislation assenting to the
       provisions of the Acts.

We also identified the internal controls over transactions recorded in the labor and
license fee accounting systems and tested their operation and reliability. Based on
the results of initial assessments, we assigned a level of risk to these systems and
selected a judgmental sample of transactions recorded in these systems for testing.
We did not project the results of the tests to the total population of recorded
transactions or evaluate the economy, efficiency, or effectiveness of the
Department’s operations.

Prior Audit Coverage
On December 11, 2007, we issued “Audit on the U.S. Fish and Wildlife Service
Federal Assistance Program Grants Awarded to the State of Maine, Department of
Inland Fisheries and Wildlife, From July 1, 2003, Through June 30, 2005”
(R-GR-FWS-0016-2005). We followed up on 13 recommendations in the report
and found that the U.S. Department of the Interior, Office of the Assistant
Secretary for Policy, Management, and Budget considers 9 recommendations as
resolved and implemented and 4 recommendations as resolved but not yet
implemented. As discussed in the “Findings and Recommendations” section of
this report, we are repeating the four unimplemented recommendations – three
regarding inaccurate real property records and one regarding risk of diversion of
license revenues through inadequate assent legislation.

We reviewed Maine’s Comprehensive Annual Financial Reports and Single Audit
Reports for SFYs 2009 and 2010. None of these reports contained any findings
that would directly impact the Program’s grants.




                                                                                  2
Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant
agreement provisions and requirements of the Acts, regulations, and FWS
guidance. In addition, we identified several conditions that resulted in the findings
listed below, including questioned costs totaling $321,180. We discuss the
findings in more detail in the “Findings and Recommendations” section.

Questioned Costs. We questioned costs totaling $321,180 because the
Department did not ensure that (1) payroll expenses paid by Program grants were
based on the actual number of hours employees worked on allowable activities
and (2) all charges made to Program grants were eligible for reimbursement.

Inadequate Assent Legislation. The State assent legislation does not specifically
prohibit the diversion of license revenues to non-fish and non-wildlife program
activities.

Unreconciled Real Property Records. The Department’s inventory of lands
purchased with Program grant funds did not always include a funding source, and
has not been reconciled with FWS land records.

Inadequate Equipment Inventory Process. The Department has not performed
an equipment inventory every 3 years, as required by the State.

Findings and Recommendations
A. Questioned Costs – $321,180

1. Unsupported Payroll Costs – $257,034

The payroll Time and Attendance Management System (TAMS) used by the
Department, records time employees spend on projects. TAMS interfaces with the
state accounting system to charge payroll costs to benefitting programs. We found
that, for two employees, the Department’s management assigned payroll costs to
Program grants based on predetermined percentages, instead of actual hours
worked, as recorded on personnel activity reports. As a result, we are questioning
$257,034 as unsupported costs.

The table below details the unsupported questioned costs (Federal share).




                                                                                   3
                     Grant Number           Unsupported Costs
                   F-28-P-32                     $14,785
                   F-28-P-33                      60,963
                   F-28-P-34                      42,238
                   W-87-R-2                       18,520
                   W-87-R-3                       71,617
                   W-87-R-4                       48,911
                   TOTAL                        $257,034

According to 2 CFR § 225, Appendix B, section 8.h(4), “where employees work
on multiple activities or cost objectives, a distribution of their salaries or wages
will be supported by personnel activity reports.” Furthermore, 2 CFR § 225,
Appendix B, section 8.h(5)(e), notes that budget estimates or other distribution
percentages determined before the services are performed do not qualify as
support for charges to Federal awards.

The Department did not have policies and procedures in place to ensure that
payroll expenses paid by Program grants are based on the actual number of hours
employees worked on allowable activities, as recorded on personnel activity
reports.

Because the Department may have been reimbursed for payroll costs that did not
represent the actual number of hours employees worked on Program grants, we
are questioning $257,034 as unsupported costs (Federal share).

 Recommendations

 We recommend that FWS:

    1. Resolves the unsupported questioned costs totaling $257,034.

    2. Works with the Department to implement policies and procedures to
       ensure payroll expenses are properly supported by personnel activity
       reports.


Department Response
Department officials concurred with the finding and recommendations.

FWS Response
FWS Regional officials concurred with the finding and recommendations. FWS
will work with the Department in developing and implementing a corrective
action plan that will resolve the finding and recommendations.




                                                                                       4
OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including:

   •   The specific actions(s) taken or planned to address the recommendations.
   •   Targeted completion dates.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

2. Ineligible Payroll Costs – $64,146

We found that the Department transferred $62,625 of payroll costs from “Loon
Plate,” a State funded project, to grant W-87-R-3. The Loon Plate project is not an
eligible grant activity. In addition, grant W-87-R-3 was charged $1,521 for non-
grant related activities due to an accounting error.

According to 2 CFR § 225, Appendix A, sections C.1a, b, and j; to be allowable
under Federal awards, costs must be necessary and reasonable, provide a benefit
to the grant, and be adequately supported.

The Department did not have policies and procedures to ensure that reclassified
payroll costs are for eligible grant charges. In addition, an accounting error was
made that resulted in charging non-grant related activities.

As a result, we are questioning ineligible costs of $64,146 to grant W-87-R-3
because the Department transferred payroll expenses for non-grant related
activities ($62,625) and made an accounting error ($1,521).

Recommendations

We recommend that FWS:

   1. Resolves the ineligible questioned costs totaling $64,146.

   2. Works with the Department to implement policies and procedures to
      ensure payroll expenses are eligible for reimbursement under the
      Program.


Department Response
Department officials concurred with the finding and recommendations.




                                                                                     5
FWS Response
FWS Regional officials concurred with the finding and recommendations. FWS
will work with the Department in developing and implementing a corrective
action plan that will resolve the finding and recommendations.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including:

   •   The specific actions(s) taken or planned to address the recommendations.
   •   Targeted completion dates.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

B. Inadequate Assent Legislation

The State’s legislation assenting to the Acts does not include a prohibition against
diverting license fees for purposes other than the administration of its fish and
wildlife agencies. While the Maine Revised Statutes (MRS 12 § 10801) identify
purposes for which fish and wildlife revenues can be used, it does not specifically
prohibit the diversion of license revenues to non-fish and non-wildlife program
activities. The Department is directed to deposit funds from the sale of licenses
into the Treasury as undedicated revenue to the General Fund.

According to 50 CFR § 80.3, “A state may participate in the benefits of the Act(s)
only after it has passed legislation which assents to the provisions of the Acts and
has passed laws for the conservation of fish and wildlife including a prohibition
against the diversion of license fees paid by hunters and sport fishermen to
purposes other than the administration of the fish and wildlife agency.”

Department officials have not enacted legislation that would prohibit diversion of
license revenue. Without adequate assent legislation, the State could be deemed
ineligible to participate in the Program.

We reported a similar condition in our prior audit report (No. R-GR-FWS-0016-
2005). We are, therefore, repeating the applicable recommendation from that
report (Recommendation A.2), which will be tracked under the resolution process
for the prior audit.




                                                                                   6
Repeat Recommendation

We recommend that FWS requires the Department to amend MRS 12 §
10801, to comply with the Acts and ensure no opportunity exists to divert
license revenues to purposes other than administration of the fish and wildlife
agency.


Department Response
Department officials did not concur with the finding and repeat recommendation,
but will seek to modify Maine’s assent legislation.

FWS Response
FWS Regional officials concurred with the finding and repeat recommendation.
FWS will work with the Department in developing and implementing a corrective
action plan that will resolve the finding and repeat recommendation.

OIG Comments
The implementation of this repeat recommendation will be tracked under the prior
audit report. Accordingly, FWS should send documentation regarding the
implementation of this repeat recommendation to the U.S. Department of the
Interior, Office of the Assistant Secretary for Policy, Management, and Budget.

C. Inadequate Real Property Records

To help maintain control over the use of land acquired with Program funds or
license revenue, the Department must ensure its database of real property is
accurate and reconciles with land records maintained by FWS. The Department
and FWS said they had not done a reconciliation. We reviewed 25 grants that
contained land acquisitions and found that 16 showed differences in reported
acreage.

Although the Department maintains a database to track land purchased with
Program funds, license revenue, or other funding sources, we found that
approximately 150 of 1,800 records did not identify a funding source.

The “Code of Federal Regulations” (50 CFR § 80.18) requires the states to be
responsible for the accountability and control of all assets acquired with Program
funds to assure that they are used for the purpose for which they were acquired
throughout their useful life. Also, 50 CFR § 80.4 extends the same accountability
and control requirements to those assets acquired with license revenues.

Department officials acknowledged that they had not implemented prior
recommendations. The Department had not developed policies and procedures to
ensure that (1) funding sources are included in the documentation for all land
acquisitions, (2) there are complete and accurate lists of all lands acquired with


                                                                                     7
Program funds or license revenues, and (3) land records have been reconciled
with FWS’ land records. As a result, the Department’s land records are not
adequate to ensure that lands acquired with grant funds are used only for their
intended purpose.

We reported similar conditions in our prior audit report (No. R-GR-FWS-0016-
2005). We are, therefore, repeating the applicable recommendations from that
report (Recommendations E.1, E.2, and E.3), which will be tracked under the
resolution process for the prior audit.

Repeat Recommendations

We recommend that FWS:

    1. Develops policies and procedures for land acquisitions that require the
       identification of funding source.

    2. Establishes complete and accurate lists of all lands acquired with
       Program funds and license revenues.

    3. Requires the Department to reconcile their land records with FWS.


Department Response
Department officials concurred with the finding and repeat recommendations.

FWS Response
FWS Regional officials concurred with the finding and repeat recommendations.
FWS will work with the Department in developing and implementing a corrective
action plan that will resolve the finding and repeat recommendations.

OIG Comments
The implementation of these repeat recommendations will be tracked under the
prior audit report. Accordingly, FWS should send documentation regarding the
implementation of these recommendations to the U.S. Department of the Interior,
Office of the Assistant Secretary for Policy, Management, and Budget.

D. Inadequate Equipment Inventory Process

Federal regulations (43 CFR § 12.72) require each State to follow its own
procedures to use, manage, and control its property to ensure it maintains
accountability for its equipment. The “Maine State Administrative and
Accounting Manual,” Chapter 35.10.54, requires the Department to conduct an
equipment inventory at least once every 3 years. We found that the Department
conducted the last inventory in 2006.



                                                                                  8
Because the Department has not done an equipment inventory since 2006, it is at
risk of losing Program-funded equipment and, therefore, cannot ensure that
equipment is used for its intended purpose.

Recommendation

We recommend that FWS ensures the Department follows State policy to
conduct an equipment inventory at least once every 3 years.


Department Response
Department officials concurred with the finding and recommendation.

FWS Response
FWS Regional officials concurred with the finding and recommendation. FWS
will work with the Department in developing and implementing a corrective
action plan that will resolve the finding and recommendation.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including:

   •   The specific actions(s) taken or planned to address the recommendation.
   •   Targeted completion dates.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.




                                                                                  9
Appendix 1
                         State of Maine
           Department of Inland Fisheries and Wildlife
            Financial Summary of Review Coverage
              July 1, 2008, Through June 30, 2010

   Grant      Grant     Claimed            Questioned
  Number    Amount        Costs     Ineligible Unsupported
 F-28-P-32   $2,698,000  $2,698,000                $14,785
 F-28-P-33    3,151,334   3,074,784                 60,963
 F-28-P-34    3,158,000   1,136,356                 42,238
 F-30-L-52      195,612      60,660
 F-30-L-53      678,431           0
 F-31-D-45      240,000     126,356
 F-38-D-17       70,000      51,948
 F-38-D-18       70,000      29,005
 F-38-D-19       70,000       5,504
 W-79-S-37      406,978     330,596
 W-79-S-38      426,278     369,868
 W-79-S-39      447,591      45,828
 W-87-R-2     2,349,333   2,349,332                 18,520
 W-87-R-3     3,682,667   3,682,667    $64,146      71,617
 W-87-R-4     3,682,666   2,428,280                 48,911
 W-88-D-2       304,895     303,740
 W-88-D-3       350,667      65,584
 W-88-D-4       350,667     154,412
 TOTAL     $22,333,119 $16,912,920    $64,146    $257,034




                                                             10
Appendix 2
                     State of Maine
       Department of Inland Fisheries and Wildlife
                      Sites Visited

                     Headquarters
                       Augusta

            Natural Resources Service Center
                       Hallowell

                   Regional Offices
                   Region B - Sidney
                  Region C - Jonesboro

              Wildlife Management Areas
                   Alonzo H. Garcelon
                 Bud Leavitt (Bull Hill)
                     Cobscook Bay
            Frye Mountain (Gene Letourneau)
                       Jonesboro
               Lyle Frost (Scammon Pond)
              Mattawamkeag River System

                     Fish Hatchery
                         Enfield

                   Public Access Site
                 Upper Cold Stream Pond




                                                     11
Appendix 3
                               State of Maine
                Department of Inland Fisheries and Wildlife
              Status of Audit Findings and Recommendations

 Recommendations               Status                 Action Required
A1.1, A1.2, A.2.1,      FWS management           Based on the FWS response,
A.2.2, and D            concurs with the         additional information is
                        recommendations,         needed in the corrective
                        but additional           action plan, as listed in the
                        information is           Findings and
                        needed, as outlined in   Recommendations section
                        the “Actions             under OIG Comments. We
                        required” column.        will refer the
                                                 recommendations not
                                                 resolved and/or implemented
                                                 at the end of 90 days (after
                                                 May 30, 2012) to the
                                                 Assistant Secretary for
                                                 Policy, Management and
                                                 Budget for resolution and/or
                                                 tracking of implementation.

Repeat                  Repeat                   Provide documentation
Recommendations B,      recommendations          regarding the implementation
C.1, C.2, and C.3       from our prior report    of these repeat
                        (No. R-GR-FWS-           recommendations to PMB.
                        0016-2005,
                        Recommendations
                        A.2, E.1, E.2, and
                        E.3). PMB considers
                        these
                        recommendations
                        resolved but not
                        implemented.




                                                                             12
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
